                                                                     AUDIT




U.S. FISH AND WILDLIFE SERVICE WILDLIFE AND
SPORT FISH RESTORATION PROGRAM GRANTS
Awarded to the State of Illinois, Department of Natural Resources,
From July 1, 2007, Through June 30, 2009




Report No.: R-GR-FWS-0003-2010                                       July 2010
                                                                                         July 9, 2010

                                          AUDIT REPORT
Memorandum

To:       Director
          U.S. Fish and Wildlife Service

From:     Suzanna I. Park
          Director of External Audits

Subject: Audit on U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
         Grants Awarded to the State of Illinois, Department of Natural Resources, From
         July 1, 2007, Through June 30, 2009 (No. R-GR-FWS-0003-2010)

        This report presents the results of our audit of costs claimed by the State of Illinois (the
State), Department of Natural Resources (the Department), under grants awarded by the U.S.
Fish and Wildlife Service (FWS). FWS provided the grants to the State under the Wildlife and
Sport Fish Restoration Program (the Program). The audit included claims totaling approximately
$38.9 million on 73 grants that were open during State fiscal years (SFYs) ended June 30 of
2008 and 2009 (see Appendix 1). The audit also covered the Department’s compliance with
applicable laws, regulations, and FWS guidelines, including those related to the collection and
use of hunting and fishing license revenues and the reporting of program income.

        We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. We questioned costs totaling $171,010 because the Department
relinquished title to land purchased with Program funds and did not have adequate support for in-
kind contributions. Furthermore, the Department: (1) did not record $1.8 million in agricultural
lease revenues, (2) did not recover interest on license revenues that were temporarily transferred
to the State’s general fund, (3) did not report all program income from agricultural leases and the
sale of commodities related to Program lands, (4) submitted inaccurate license certifications to
FWS, and (5) did not reconcile its real property records with FWS.

        During our audit, FWS raised concerns about the State’s use of license revenues to pay
costs associated with the Conservation Reserve Enhancement Program (CREP). This program
helps agricultural producers protect environmentally sensitive land, decrease erosion, restore
wildlife habitat, and safeguard ground and surface water. FWS determined that beginning in SFY
2010, the Department may only pay for technical assistance and monitoring efforts related to
CREP with license revenues. We urge FWS to monitor future CREP expenditures to ensure that
license revenues are used solely to manage the State’s fish and wildlife resources.

      We revised the draft report finding B based on information provided by the Department
and FWS to an unrecorded liability of agricultural lease revenues.

                           Office of Audits, Inspections, and Evaluations | Reston, VA
        We provided a draft report to FWS for a response. We summarized FWS Region 3
response to the recommendations, as well as our comments on the response. We list the status of
the recommendations in Appendix 3.

       Please respond in writing to the findings and recommendations included in this report by
October 7, 2010. Your response should include information on actions taken or planned, targeted
completion dates, and titles of officials responsible for implementation. Please address your
response to:

                              Director of External Audits
                              U.S. Department of the Interior
                              Office of Inspector General
                              12030 Sunrise Valley Drive, Suite 230
                              Reston, VA 20191

      If you have any questions regarding this report, please contact the audit team leader,
Mr. Tom Nadsady, or me at 703–487–5345.

cc:   Regional Director, Region 3, U.S. Fish and Wildlife Service
Table of Contents
Introduction ............................................................................................................. 1
   Background ......................................................................................................... 1
   Objectives ............................................................................................................ 1
   Scope ................................................................................................................... 1
   Methodology ....................................................................................................... 1
   Prior Audit Coverage .......................................................................................... 2
Results of Audit ...................................................................................................... 3
   Audit Summary ................................................................................................... 3
   Findings and Recommendations ......................................................................... 3
Appendix 1 ............................................................................................................ 13
Appendix 2 ............................................................................................................ 16
Appendix 3 ............................................................................................................ 17
Introduction
Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport
Fish Restoration Act (the Acts) 1 established the Wildlife and Sport Fish
Restoration Program. Under the Program, FWS provides grants to States to
restore, conserve, manage, and enhance their sport fish and wildlife resources.
The Acts and Federal regulations contain provisions and principles on eligible
costs and allow FWS to reimburse States up to 75 percent of the eligible costs
incurred under the grants. The Acts also require that hunting and fishing license
revenues be used only for the administration of the State’s fish and game agency.
Finally, Federal regulations and FWS guidance require States to account for any
income they earn using grant funds.

Objectives
Our audit objectives were to determine if the Department:

       •    Claimed the costs incurred under the Program grants in accordance with
            the Acts and related regulations, FWS guidelines, and the grant
            agreements.
       •    Used State hunting and fishing license revenues solely for fish and
            wildlife program activities.
       •    Reported and used program income in accordance with Federal
            regulations.

Scope
Audit work included claims totaling approximately $38.9 million on the 73 grants
that were open during SFYs 2008 and 2009 (see Appendix 1). We report only on
those conditions that existed during this audit period. We performed our audit at
Department headquarters in Springfield, IL, and visited three State fish and
wildlife areas, two State parks, three State recreation areas, one regional office,
one fish hatchery, and one shooting complex (see Appendix 2). We performed
this audit to supplement, not replace, the audits required by the Single Audit Act
Amendments of 1996 and by Office of Management and Budget Circular A-133.

Methodology
We performed our audit in accordance with the “Government Auditing
Standards” issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted
auditing procedures as necessary under the circumstances. We believe that the

1
    16 U.S.C. §§ 669 and 777, as amended, respectively.



                                                                                     1
evidence obtained from our tests and procedures provides a reasonable basis for
our findings and conclusions based on our audit objectives.

Our tests and procedures included:

   •   Examining the evidence that supports selected expenditures charged to the
       grants by the Department.
   •   Reviewing transactions related to purchases, direct costs, drawdowns of
       reimbursements, in-kind contributions, and program income.
   •   Interviewing Department employees to ensure that personnel costs
       charged to the grants were supportable.
   •   Conducting site visits to inspect equipment and other property.
   •   Determining whether the Department used hunting and fishing license
       revenues solely for administration of the Department.
   •   Determining whether the State passed required legislation assenting to the
       provisions of the Acts.

We also identified the internal controls over transactions recorded in the labor and
license fee accounting systems and tested their operation and reliability. Based on
the results of initial assessments, we assigned a level of risk to these systems and
selected a judgmental sample of transactions recorded in these systems for testing.
We did not project the results of the tests to the total population of recorded
transactions or evaluate the economy, efficiency, or effectiveness of the
Department’s operations.

Prior Audit Coverage
On March 31, 2006, we issued “Final Audit Report on the U.S. Fish and Wildlife
Service Federal Assistance Grants Administered by the State of Illinois,
Department of Natural Resources, from July 1, 2002, through June 30, 2004” (No.
R-GR-FWS-0004-2005). We followed up on all 12 recommendations in the report
and found that the U.S. Department of the Interior, Office of Assistant Secretary
for Policy, Management, and Budget considered them resolved and implemented.

We also reviewed Illinois’ Comprehensive Annual Financial Report and Single
Audit Report for SFY 2008. The Department’s Wildlife and Sport Fish
Restoration Programs were not identified as major programs in the Single Audit.
Neither of these reports contained any findings that would directly impact the
Program grants.




                                                                                  2
Results of Audit
Audit Summary
We found that the Department complied, in general, with applicable grant
agreement provisions and requirements of the Acts, regulations, and FWS
guidance. Nevertheless, we identified several conditions that resulted in the
findings listed below, including questioned costs totaling $171,010. We discuss
the findings in more detail in the Findings and Recommendations section.

   Questioned Costs. We questioned costs totaling $171,010 (Federal share)
   claimed on three grants because the Department relinquished title to land
   purchased with Program funds and did not have adequate support for in-kind
   contributions.

   Unrecorded Liability. The Department did not record a liability in its
   financial statements for agricultural lease revenues of $1.8 million.

   Lost Interest on Transferred License Revenues. The State temporarily
   transferred license revenues from the Department’s fish and wildlife fund to
   the State’s general fund but did not repay the Department with interest.

   Unreported Program Income. The Department did not report all program
   income that it earned on lands and facilities managed with Program funds.
   This income was generated through payments on agricultural leases and from
   the sale of crops and fish.

   Inaccurate License Certifications. The Department’s hunting and fishing
   license certifications submitted to FWS in 2007 and 2008 reported more
   licenses than were actually sold.

   Unreconciled Real Property Records. We could not determine whether the
   Department’s database of real property acquired with Program funds was
   accurate. The Department had not reconciled its real property records with
   FWS records.

Findings and Recommendations
A. Questioned Costs – $171,010

   1. Loss of Control of Real Property – $166,411

       States may purchase real property with Program funds but must retain title
       to the property to further fish and wildlife objectives. In SFY 2009, the
       Department received Grant F-164-L for $244,736 (Federal share
       $166,411) to purchase the Illinois River Biological Station from the


                                                                                  3
     Illinois Natural History Survey; however, title to this property was vested
     in the University of Illinois rather than the Department.

     The Code of Federal Regulations (CFR), in 43 CFR § 12.71(a), requires
     that title to real property acquired under a grant or subgrant be vested in
     the grantee or subgrantee upon acquisition. Furthermore, 50 CFR §
     80.18(c) notes that the State must maintain accountability and control of
     all assets to assure they serve the purpose for which acquired throughout
     their useful life. Finally, according to 50 CFR § 80.14, if property
     purchased with Program funds passes from the management control of the
     State fish and wildlife agency, control must be fully restored to that
     agency.

     Department officials informed us that the State’s General Assembly
     transferred all property and functions of the Illinois River Biological
     Station to the University of Illinois, so title to the property was vested in
     the University. As a result, we are questioning the entire Federal share of
     Grant F-164-L, totaling $166,411.

Recommendation

We recommend that FWS resolve the $166,411 in questioned costs.


     Department Response
     The Department concurred with the finding and recommendation.

     FWS Response
     FWS regional officials concurred with the finding and recommendation.

     OIG Comments
     Based on FWS response, additional information is needed in the corrective
     action plan, including:

         •   The specific action(s) taken or planned to address the
             recommendation.
         •   Targeted completion date.
         •   Titles of officials responsible for implementing the actions taken or
             planned.
         •   Verification that FWS headquarters officials reviewed and
             approved of actions taken or planned by the Department.




                                                                                     4
2. Unsupported In-Kind Contributions – $4,599

   Under the Program, States must use “State matching” (non-Federal) funds
   to cover at least 25 percent of costs incurred to perform projects under the
   grants. Noncash (“in-kind”) contributions may be used to meet States’
   matching share of costs, but the value of these contributions must be
   supported in a manner similar to costs claimed for reimbursement. We
   reviewed in-kind contributions consisting of labor donated by volunteers
   who taught hunter education courses under Grants W-82-S-36 and W-82-
   S-37. The Department multiplied labor rates by the hours noted on
   volunteers’ timesheets to calculate the value of these contributions. Of the
   eight courses in our sample:

      •   Timesheets for three courses were not signed or initialed by the
          lead instructors, even though the Department requires its own
          supervisors to initial and approve employees’ timesheets.
      •   Volunteer hours for six courses were incorrectly entered into the
          database used to collect and report the Department’s in-kind
          contributions. In one instance, the timesheet indicated that a
          volunteer worked .75 hours, while the database showed 75 hours.

   The CFR provides the general documentation requirements for in-kind
   contributions. Under 2 CFR § 225, Appendix A, Subsection C.1.j, which
   outlines basic guidelines on cost principles, costs must be adequately
   documented to be allowable under Federal awards. According to 43 CFR §
   12.64(b)(6), in-kind contributions that satisfy a matching requirement
   must be verifiable from the records of grantees, and those records must
   show how the value placed on the in-kind contributions was derived. It
   also notes that to the extent feasible, volunteer services should be
   supported by the same methods that the organization uses to support the
   allocability of regular personnel costs. Furthermore, Section 2 of the
   Department’s Timekeeping Handbook states that Department employees’
   timesheets must be initialed by their supervisor.

   This issue occurred because officials did not consistently follow the
   Department’s procedures to: (1) ensure that lead instructors initial and
   approve volunteers’ timesheets and (2) review information in the in-kind
   database for accuracy. As a result, the Department overstated the value of
   volunteer hours on Grants W-82-S-36 and W-82-S-37, resulting in $3,333
   and $1,266 in questioned costs, respectively. We are therefore questioning
   a total of $4,599 in unsupported costs (Federal share).




                                                                              5
      Federal Share of Questioned Costs, Hunter Education Grants
                                              Grant Numbers
                                                and Amounts
                  Description               W-82-S-36 W-82-S-37 Total
      Original Federal Share Claimed         $825,961 $945,788
      Total Grant Outlays                   $1,101,281 $1,261,051
      Less: Unsupported In-Kind
                                         $4,444     $1,688
      Contributions
      Revised Grant Outlays          $1,096,837 $1,259,363
      Allowable Federal Share              75%        75%
      Allowable Federal Amount        $822,628 $944,522
      Federal Share Questioned Costs    $3,333     $1,266 $4,599

Recommendations

We recommend that FWS:

  1. Resolve the unsupported questioned costs totaling $4,599.

  2. Require the Department to follow its own procedures to ensure that
     in-kind contributions are reported accurately.


     Department Response
     The Department concurred with the finding and recommendations.

     FWS Response
     FWS regional officials concurred with the finding and recommendations.

     OIG Comments
     Based on FWS response, additional information is needed in the corrective
     action plan, including:

        •   The specific action(s) taken or planned to address the
            recommendations.
        •   Targeted completion date.
        •   Titles of officials responsible for implementing the actions taken or
            planned.
        •   Verification that FWS headquarters officials reviewed and
            approved of actions taken or planned by the Department.




                                                                               6
B. Unrecorded Liability

   The Department earns revenues from the lease of agricultural lands on
   wildlife management areas (WMA) and parks. The Department policy is to
   use these revenues only at the site where it was earned.

   For SFY 2009, the Department did not record $1.8 million of agricultural
   lease revenues earned but not expended at the respective sites. As a result, the
   Department’s liabilities were understated by the $1.8 million.

   According to the Code of Federal Regulations (43 C.F.R. § 12.60) requires
   States to comply with their procedures. Illinois DNR Policy and Procedure
   Manual, Chapter 5 Resources, Subchapter E Land, Section 5E-9
   Agriculture/Wildlife & Habitat Land Lease Management, revised
   November 6, 2006, states that revenues from farm lease income may only be
   used at the site where generated to support or maintain wildlife habitat or
   other natural resource objectives.

 Recommendation

 We recommend that FWS ensure the Department records the agricultural
 liability of $1.8 million in the Department’s financial statements.


   Department Response
   The Department concurred with the finding and recommendation.

   FWS Response
   FWS regional officials concurred with the finding and recommendation.
   OIG Comments
   Based on FWS response, additional information is needed in the corrective
   action plan, including:

      •   The specific action(s) taken or planned to address the
          recommendation.
      •   Targeted completion date.
      •   Titles of officials responsible for implementing the actions taken or
          planned.
      •   Verification that FWS headquarters officials reviewed and approved of
          actions taken or planned by the Department.

C. Lost Interest on Transferred License Revenues

   Federal regulations require States participating in the Program to use any
   interest earned on license revenues for fish and wildlife purposes only. In
   2009, however, the State transferred approximately $9.3 million of license

                                                                                  7
   revenues from its fish and wildlife fund to its general fund to cover a
   budgetary shortfall. Even though the license revenues were returned to the fish
   and wildlife fund within 6 months, the Department lost $57,457 in interest that
   it otherwise would have earned.

   According to 50 CFR § 80.4, license revenues include license fees paid by
   hunters and anglers and any interest, dividends, or other income the
   Department earns from these fees. These revenues may only be used to
   manage the fish and wildlife-oriented resources of the State for which the
   agency has authority under State law.

   This issue occurred because the legislation returning the license revenues to
   the fish and wildlife fund did not include a provision to repay the Department
   with interest. As a result, the State’s fish and wildlife programs have not been
   able to benefit from $57,457 that the Department otherwise would have
   earned in interest.

Recommendation

We recommend that FWS ensure the State reimburses the fish and wildlife
fund $57,457 for interest lost on the transferred license revenues.


   Department Response
   The Department concurred with the finding and recommendation.

   FWS Response
   FWS regional officials concurred with the finding and recommendation.

   OIG Comments
   Based on FWS response, additional information is needed in the corrective
   action plan, including:

      •   The specific action(s) taken or planned to address the
          recommendation.
      •   Targeted completion date.
      •   Titles of officials responsible for implementing the actions taken or
          planned.
      •   Verification that FWS headquarters officials reviewed and approved of
          actions taken or planned by the Department.

D. Unreported Program Income

   The Department received Grants F-121-D-17 and F-121-D-18 for the
   operation and maintenance of the Little Grassy Fish Hatchery and Grants
   W-76-D-42 and W-76-D-43 for the operation and maintenance of its State fish
   and wildlife areas (SFWAs). During SFYs 2008 and 2009, the Department

                                                                                  8
  earned revenue totaling $47,261 from work supported by these grants at the
  hatchery and two SFWAs. The Department did not report this revenue as
  program income to FWS.

                       Unreported Program Income
                     Source of
      Grant          Revenue               Location                  Amount
  F-121-D-17     Sale of fish     Little Grassy Fish Hatchery         $9,507
  F-121-D-18     Sale of fish     Little Grassy Fish Hatchery           6,796
  W-76-D-42      Sale of crops    Kaskaskia River SFWA                 15,684
                 Agricultural     Kaskaskia River SFWA and
  W-76-D-42                                                              3,980
                 leases           Rend Lake SFWA
  W-76-D-43      Sale of crops    Kaskaskia River SFWA                  11,294
  Total                                                               $47,261

  According to 43 CFR § 12.65(b), program income consists of gross income
  received by a grantee that is directly generated by a grant-supported activity or
  earned only as a result of the grant agreement during the grant period.
  Furthermore, 43 CFR § 12.65(g) requires that program income be deducted
  from grant outlays unless the grant agreement specifies another method.

  This problem arose due to two main factors. First, headquarters staff did not
  realize that revenues from the sale of commodities produced on facilities
  managed with Program funds should be classified as program income.
  Second, the Department did not report the $3,980 in revenue from agricultural
  leases to FWS due to a data entry error. Because the program income was not
  reported, the Department could have received excess reimbursements of
  Federal funds.

Recommendation

We recommend that FWS resolve the unreported program income totaling
$47,261.


  Department Response
  The Department partially concurred with the finding and recommendation.
  The Department concurred that $3,980 was not reported due to a clerical error
  and the $26,978 ($15,684 and $11,294) should have been reported. The
  Department did not agree that the sale of fish should have been reported as
  program income.

  FWS Response
  FWS regional officials concurred with the finding and recommendation.




                                                                                 9
   OIG Comments
   We disagree with the Department's comment that the hatchery costs are
   allocated to the point where grant cost do not share in the production fish sold.
   As previously stated, revenues earned as a result of grant expenditures are
   considered program income.

   Based on FWS response, additional information is needed in the corrective
   action plan, including:

      •   The specific action(s) taken or planned to address the
          recommendation.
      •   Targeted completion date.
      •   Titles of officials responsible for implementing the actions taken or
          planned.
      •   Verification that FWS headquarters officials reviewed and approved of
          actions taken or planned by the Department.

E. Inaccurate License Certifications

   Annual apportionments of Program funds are based in part on the number of
   paid hunting and fishing license holders certified by the director of each
   State’s fish and wildlife agency. The Department issued a certification report
   to FWS in August 2007 for licenses purchased during the year ending
   March 31, 2007. Due to a change in the reporting period parameters set by
   FWS, the Department appropriately resubmitted the same report in August
   2008, to cover the next certification period. The certifications were based on
   data from the Department’s licensing system. Our review of that system,
   however, showed that the State overreported the actual number of licenses to
   FWS.

               Overreported Licenses in the Department’s
           August 2007 and August 2008 License Certifications
                                                  Number of
                  Source of Information            Licenses
          License Certifications Submitted to FWS 1,048,076
          State Licensing System                  1,035,161
          Difference (Overreported Licenses)        12,915

   According to 50 CFR §§ 80.10(a) and (b), information concerning the number
   of persons holding paid hunting and fishing licenses in the State in the
   preceding year shall be furnished to FWS, and the information shall be
   certified as accurate by the Department.

   This problem arose because of two main factors. First, the Department did not
   have policies and procedures in place to ensure the accuracy of its license
   certifications. Second, the certifications were tabulated after the Department


                                                                                 10
   implemented a new point of sale system for its licenses; the learning curve
   associated with operating that system could have contributed to the inaccurate
   license count. Due to these issues, the State might have received an excess
   apportionment of Program funds.

Recommendations

We recommend that FWS:

    1. Resolve the issue of overreported licenses.

    2. Require the Department to establish policies and procedures to ensure
       the accuracy of its license certifications.


   Department response
   The Department concurred with the finding and recommendations.

   FWS Response
   FWS regional officials concurred with the finding and recommendations.

   OIG Comments
   Based on FWS response, additional information is needed in the corrective
   action plan, including:

      •   The specific action(s) taken or planned to address the
          recommendations.
      •   Targeted completion date.
      •   Titles of officials responsible for implementing the actions taken or
          planned.
      •   Verification that FWS headquarters officials reviewed and approved of
          actions taken or planned by the Department.

F. Unreconciled Real Property Records

   FWS maintains records on lands purchased by States with Program grant
   funds. States, in turn, are responsible for establishing their own real property
   management systems to ensure that such lands are used for their originally
   intended purposes. We determined that the Department had not reconciled it
   real property database with records maintained by FWS and therefore could
   not demonstrate that its records were accurate and complete.

   According to 50 CFR § 80.18 and 522 FW 1.15 (FWS Manual), each State is
   required to maintain accountability and control of all assets to assure that they
   are used for the purpose for which acquired throughout their useful life. The
   FWS Director reiterated land management requirements to Program
   participants in a March 29, 2007 letter. This letter requested each State to

                                                                                  11
  maintain a comprehensive inventory of lands and to ensure that its inventory
  is accurate and complete.

  This issue occurred because Department officials were not aware of the
  requirement to reconcile their real property data with FWS. The Department
  therefore could not ensure the accountability and control of lands purchased
  with Program funds.

Recommendation

We recommend that FWS ensure the Department reconciles its database of
lands acquired with Program funds with FWS.


   Department Response
   The Department did not concur with the finding and recommendation;
   however, it agreed to continue working with the FWS to reconcile land
   records but were waiting for FWS to provide a template so that common
   fields can be compared.

   FWS Response
   FWS regional officials concurred with the finding and recommendation.

   OIG Comments
   Based on FWS response, additional information is needed in the corrective
   action plan, including:

     •   The specific action(s) taken or planned to address the
         recommendation.
     •   Targeted completion date.
     •   Titles of officials responsible for implementing the actions taken or
         planned.
     •   Verification that FWS headquarters officials reviewed and approved of
         actions taken or planned by the Department.




                                                                               12
Appendix 1
                           State of Illinois
                 Department of Natural Resources
              Financial Summary of Review Coverage
                July 1, 2007, Through June 30, 2009
                                            Questioned Costs
   Grant       Grant        Claimed           (Federal Share)
  Number      Amount         Costs       Ineligible Unsupported
F-29-D-30    $1,276,588   $1,296,641
F-29-D-31     1,324,280    1,289,861
F-52-R-22       172,965      197,438
F-52-R-23       242,245      242,245
F-65-R-22       291,071      267,785
F-65-R-23       304,035      268,054
F-67-R-22       847,077      889,964
F-67-R-23       875,386      950,568
F-69-R-21       724,871      732,723
F-69-R-22     1,077,052    1,081,363
F-101-R-19       80,000       90,931
F-101-R-20      116,200      117,293
F-121-D-17    3,074,638    3,133,224
F-121-D-18    3,164,741    3,332,155
F-123-R-14      251,658      290,076
F-123-R-15      315,527      320,697
F-135-R-10      475,992      489,075
F-135-R-11    1,495,040      512,363
F-138-R-10       99,000      119,806
F-138-R-11      107,003      109,795
F-138-R-12      109,966      110,750
F-151-R-6       110,668      111,721
F-151-R-7       115,102      116,751
F-155-B-1       363,232      362,827
F-156-B-1       259,864       40,429
F-157-B-1       502,020      469,098
F-158-B-1       512,020      466,019
F-159-B-1       207,020      187,881
F-160-B-1     1,176,059    1,150,204
F-161-B-1       464,612      439,117




                                                              13
Appendix 1
                           State of Illinois
                 Department of Natural Resources
              Financial Summary of Review Coverage
                July 1, 2007, Through June 30, 2009
                                            Questioned Costs
   Grant       Grant       Claimed            (Federal Share)
  Number     Amount         Costs        Ineligible Unsupported
F-162-B-1    $289,843        $41,437
F-164-L-1      244,736       221,762    $166,411
F-166-B-1    1,416,753        80,557
F-167-B-1       50,000        47,747
F-168-B-1      371,000        19,660
FW-5-C-50      640,178       562,869
FW-5-C-51      659,382       619,183
W-15-L-19            0             0
W-38-L-4             0             0
W-43-R-55      225,331       228,221
W-43-R-56      266,640       258,398
W-67-L-4             0             0
W-76-D-42    4,000,000     5,025,880
W-76-D-43    4,580,000     4,965,546
W-82-S-36    1,183,378     1,101,281                    $3,333
W-82-S-37    1,361,352     1,261,051                     1,266
W-87-R-30      225,019       228,155
W-87-R-31      174,121       174,620
W-99-R-20      299,619       543,159
W-99-R-21      513,000       875,412
W-106-R-18     249,014       251,680
W-106-R-19     199,686       203,716
W-112-R-16     344,253       343,672
W-112-R-17     361,133       361,522
W-112-R-18     380,068       131,395
W-135-R-9      249,295       254,925
W-135-R-10     249,282       251,686
W-142-R-5       19,057        23,749
W-146-R-3      329,341       384,781
W-146-R-4      613,339       626,768




                                                                 14
Appendix 1
                             State of Illinois
                   Department of Natural Resources
                Financial Summary of Review Coverage
                  July 1, 2007, Through June 30, 2009
                                               Questioned Costs
  Grant        Grant        Claimed             (Federal Share)
 Number       Amount         Costs         Ineligible  Unsupported
W-147-T-1      $146,667       $155,356
W-147-T-2        133,338        126,432
W-147-T-3        133,333         33,556
W-148-R-1         33,333         40,093
W-148-R-2         33,333         36,393
W-148-R-3         60,000              0
W-149-R-1         33,333         42,109
W-149-R-2         33,333         33,732
W-150-R-1         66,408         60,418
W-151-R-1        100,205        108,808
W-152-R-1         33,333              0
W-152-R-2         33,333              0
W-153-R-1         66,666              0
Total       $40,537,367    $38,912,583     $166,411       $4,599




                                                                   15
Appendix 2
                   State of Illinois
           Department Of Natural Resources
                    Sites Visited

                     Headquarters
                      Springfield

              State Fish and Wildlife Areas
                       Carlyle Lake
                 Jim Edgar Panther Creek
                     Kaskaskia River

                      State Parks
                     Pere Marquette
                     Sangchris Lake

                 State Recreation Areas
                       Eldon Hazlet
                         Pyramid
                    Randolph County

                          Other
               Little Grassy Fish Hatchery
                Region IV Office, Alton
      World Shooting & Recreational Complex, Sparta




                                                      16
Appendix 3
                              State of Illinois
                     Department Of Natural Resources
              Status of Audit Findings and Recommendations

Recommendations Status                           Action Required
A.1, A.2.1, A.2.2, B,   FWS management           Based on FWS response,
C, D, E.1, E.2, and F   concurs with the         additional information is
                        recommendations, but     needed in the corrective
                        additional information   action plan, including, the
                        is needed as outlined    specific action(s) taken or
                        in the "Action           planned to address the
                        Required" column.        recommendations, targeted
                                                 completion date, titles of
                                                 officials responsible for
                                                 implementing the actions
                                                 taken or planned, verification
                                                 that FWS headquarters
                                                 officials reviewed and
                                                 approved of actions taken or
                                                 planned by the Department.
                                                 We will refer the
                                                 recommendations not
                                                 resolved and/or implemented
                                                 at the end of 90 days (after
                                                 October 7, 2010) to the
                                                 Assistant Secretary for Policy,
                                                 Management and Budget for
                                                 resolution and/or tracking of
                                                 implementation.




                                                                              17
      Report Fraud, Waste,
      and Mismanagement
             Fraud, waste, and mismanagement in
            government concern everyone: Office
           of Inspector General staff, Departmental
            employees, and the general public. We
               actively solicit allegations of any
           inefficient and wasteful practices, fraud,
                and mismanagement related to
            Departmental or Insular Area programs
                and operations. You can report
               allegations to us in several ways.



By Mail:            U.S. Department of the Interior
                    Office of Inspector General
                    Mail Stop 4428 MIB
                    1849 C Street, NW
                    Washington, D.C. 20240


By Phone:           24-Hour Toll Free                   800-424-5081
                    Washington Metro Area               703-487-5435


By Fax:             703-487-5402


By Internet:        www.doioig.gov
